Semiannual
Report to Congress




                     April 2012
Cover photo of Glen Canyon Dam in northern Arizona,
courtesy of Lisa Powell, OIG.

This report is printed on recycled paper with soy-based inks.
                                                                                            April 2012
                                                                                      October 1, 2011 - March 31, 2012



Contents
About DOI and OIG................................................................................................ii

Message from the
Acting Inspector General.......................................................................................iii

OIG Operating Principles.......................................................................................v

Office of Inspector General....................................................................................1

Summaries of Significant Reports..........................................................................5

Appendices................................................................................................................23


         Editors                    Contributors                        Images                      Production
                                     Donald Cairns
                                      Joann Gauzza
                                     Joel Guenther
      Robert Gettlin                  Mary Maruca                     Lisa Powell                    Mary Maruca
     Kimberly Pernice                 Susan Parrott                Shutterstock.com                Kimberly Pernice
                                     Gillian Sharpley
                                       Mary Strand
About DOI and OIG
        The U.S. Department of the Interior (DOI) is a large, decentralized agency with
employees and volunteers serving in approximately 2,400 operating locations across the United
States, Puerto Rico, U.S. territories, and freely associated states. DOI is responsible for 500
million acres of America’s public land, or about one-fifth of the land in the United States,
and 56 million acres of Indian Trust lands. DOI is also responsible for a variety of water and
underwater resources, including hundreds of dams and reservoirs and thousands of oil and gas
leases on millions of acres of the Outer Continental Shelf. Approximately 30 percent of the
Nation’s energy production comes from projects on DOI-managed lands and offshore areas. DOI
scientists conduct a wide range of research on biology, geology, and water to provide land and
resource managers with critical information for sound decisionmaking. DOI lands also provide
outstanding recreational and cultural opportunities to numerous visitors worldwide.

       The Office of Inspector General (OIG) promotes excellence, integrity, and
accountability in these DOI programs. With fewer than 300 employees, the organization is driven
by a keen sense of mission and dedicated to providing products and services that impact DOI
mission results.




ii                                                                  Back to Toc
Message from the
Acting Inspector General



        One of the most effective, but often underutilized, tools for combating fraud, waste, and
mismanagement in Government is a legal process called suspension and debarment whereby
a company or an individual that has acted improperly or without integrity is prevented from
participating in Government contracts, subcontracts, loans, grants, or other assistance programs.
The OIG’s suspension and debarment program has been recognized as one of the more robust in
the Inspector General (IG) community and lauded for exemplifying best practices. An in-depth
review on our program begins on page 1 of this Semiannual Report.

         We rejuvenated our suspension and debarment program in 2009 because we recognized
its effectiveness. With our assistance and acting on our referrals over the past 3 years, DOI has
suspended or debarred over 130 firms and individuals. A Government Accountability Office
report to Congress last year noted that the most effective suspension and debarment programs
included dedicated staff, issued detailed implementation guidance, and encouraged an active
referral process. DOI’s program exemplifies each of these characteristics. A recent report by the
Council of the Inspectors General on Integrity and Efficiency identified DOI OIG as one of the
few agencies that assigns staff to periodically review all OIG investigative, audit, and inspection
reports for convictions, pleas, and other information that might merit suspension and debarment
consideration.

        We have also gone beyond suspension and debarment actions to develop a process for
implementing compliance and ethics agreements with companies facing potential suspension
or debarment. These require acceptance of responsibility for improper conduct, training for
employees, audits and internal controls, a mechanism for reporting misconduct, and appointment
of third party monitors.

        In addition, OIG has provided training to more than 650 special agents, investigators, and
contracting and grants officials across DOI bureaus over the past 3 years on how to detect fraud
and to refer matters to OIG for review. Our training has also included outreach to other Federal
agencies within and outside the IG community.




                                                                                                 iii
        OIG’s significant activities over the past 6 months have also included a number of
reports by our Office of Audits, Inspections, and Evaluations on issues ranging from improved
monitoring of conservation easements by the U.S. Fish and Wildlife Service to financial savings
for DOI and enhanced environmental stewardship by reducing Government travel through the
use of video conferencing technology. In addition, cases by our Office of Investigations have
targeted financial fraud, from significant misuse of Government credit cards to embezzlement of
Federal funds by tribal officials. We have also continued our sharp focus on the collection of oil
and gas royalties and operations compliance. These and other significant accomplishments are
described throughout this Semiannual Report.




                                                     Mary L. Kendall
                                                     Acting Inspector General




iv                                                                       Back to Toc
OIG Operating Principles

Mission
OIG’s mission is to provide independent oversight and promote excellence, integrity, and
accountability within the programs, operations, and management of the U.S. Department of the
Interior.

Values
OIG operates as an independent oversight organization responsible to the American people,
DOI, and Congress. We abide by the highest ethical standards and have the courage to tell our
customers and stakeholders what they need to know, not what they wish to hear. Our core values
help us fulfill our mission and include—

 •     placing highest value on objectivity and independence to ensure integrity in our
       workforce and products;
 •     striving for continuous improvement; and
 •     believing in the limitless potential of our employees.

Responsibilities
OIG is responsible for independently and objectively identifying risks and vulnerabilities that
directly impact DOI’s ability to accomplish its mission. We are required to keep the Secretary
and Congress informed of problems and deficiencies relating to the administration of DOI
programs and operations. As a result of us fulfilling these responsibilities, Americans can expect
greater accountability and integrity in Government program administration.

Activities
OIG accomplishes its mission by conducting audits, inspections, evaluations, assessments,
and investigations relating to DOI programs and operations. Our activities are tied to major
departmental responsibilities and assist DOI in developing solutions for its most serious
management and program challenges. These activities are designed to ensure that we prioritize
critical issues. Such prioritizing provides opportunities to influence key decisionmakers and
increases the likelihood that we will achieve desired outcomes and results that benefit the public.




                                                                 Back to Toc                         v
Office of
Inspector General
Suspension and Debarment Program
Praised for Best Practices
In 2009, OIG teamed with DOI’s Acquisition and Property Management Office to rejuvenate a
suspension and debarment program now lauded in the Federal community as exemplifying best
practices. Suspension and debarment actions prevent companies and individuals from
participating in Government contracts, subcontracts, loans, grants, or other assistance programs,
and protect the Government from doing business with companies or individuals that pose a
business risk. We are one of the few OIGs with a staff dedicated entirely to referring suspension
and debarment actions to its agency.

OIG’s suspension and debarment capabilities continue to expand, allowing DOI to exclude an
increasing number of firms or individuals from receiving Federal awards based on questionable
qualifications and business integrity or poor performance. With our support, DOI has enhanced
its monitoring of firms that previously exhibited inadequate Federal fund management. Since the
revitalization of the program 3 years ago, DOI has suspended or debarred 130 firms or
individuals and entered into compliance and ethics agreements—an agreement in lieu of
suspension or debarment—with 2 firms and 2 individuals.

Congress has recognized suspensions and debarments as effective tools to protect the Federal
Government’s business interests and ultimately those of American taxpayers. Last year, Congress
commissioned the Government Accountability Office (GAO) to conduct a study of suspension
and debarment programs across the Federal Government. In its report, “Suspension and
Debarment: Some Agency Programs Need Greater Attention, and Government Oversight Could
Be Improved,” GAO noted that the most effective and successful programs staffed dedicated
employees, issued detailed implementation guidance, and encouraged an active referral process.
DOI’s program exemplifies each of these characteristics.

Like GAO, the Council of the Inspectors General on Integrity and Efficiency (CIGIE) also issued
a report focused on suspension and debarment. The report, “Don’t Let the Toolbox Rust:
Observations on Suspension and Debarment, Debunking Myths, and Suggested Practices for
Offices of Inspectors General,” noted DOI’s comprehensive policy, which includes detailed
descriptions of the roles and responsibilities of agency and OIG program managers and
employees for the day-to-day administration of suspensions and debarments, as well as protocols
for identifying potential suspension and debarment candidates, drafting referral memoranda and
notifications, tracking actions, and handling post-notification procedures.

The CIGIE report recognized DOI OIG as one of the few agencies that assigns staff to
periodically review all OIG investigative, audit, and inspection reports for convictions, pleas, and
other information that might merit suspension and debarment consideration. The former Chair of
the Interagency Suspension and Debarment Committee, Willard D. Blalock, praised DOI for
taking “aggressive steps to strengthen their suspension and debarment programs.”

                                                                                                    1
DOI policies require DOI contracting officers and nonprocurement award officials to refer all
terminations for cause or default of Federal awards to OIG for review. In recognition of the
successful collaboration between us and DOI, DOI’s debarment official and OIG’s suspension
and debarment personnel hosted a panel on effective OIG and agency coordination at the CIGIE
Suspension and Debarment Conference in October 2011.

In addition, DOI is the only agency to have debarred a company for failure to fulfill its reporting
requirements under the American Recovery and Reinvestment Act (ARRA). In response to the
President’s April 2010 memorandum, “Combating Noncompliance with Recovery Act Reporting
Requirements,” we developed a strategy to address each recipient of an ARRA award that failed
to fulfill its Section 1512 reporting responsibilities under ARRA for two consecutive quarters. In
such cases, we send a letter to the non-reporter advising the company that it will be
recommended for debarment if it fails to fulfill its reporting requirements for a third consecutive
quarter. The letter also sets forth the consequences of debarment. This proactive approach
encouraged many companies to comply with reporting requirements and ensured transparency.

More recently, we issued our first recommendations for the debarment of companies that hold oil
leases in connection with the failure to pay royalties due to the Government. In addition, OIG
program staff met with Bureau of Safety and Environmental Enforcement officials, at the request
of the Bureau, to provide training and information on potential administrative remedies available
to the Government.

Suspension and Debarment Use OIG-Wide
The CIGIE report on suspension and debarment gave impetus to incorporate suspension and
debarment reviews into our audit, inspection, and evaluation work on contract claims audits. A
contractor that has submitted false or inflated claims against the Government may be found to
have acted fraudulently or without business integrity. Audit work may produce sufficient
evidence of unsupported or questioned costs to merit a suspension or debarment
recommendation. By using investigative resources to review audit issues and incorporate our
extensive audit work into suspension and debarment reviews, we can contribute significantly to
our mission by protecting the Government’s business interests and ensuring integrity and
efficiency in DOI programs and operations.

The success of DOI’s and OIG’s suspension and debarment program can be seen in several
examples. A U.S. Geological Survey employee referred information to OIG regarding a
contractor that was the lowest bidder on a $920,000 ARRA contract; the contractor was just
indicted for bribery and theft in Indiana state court. We confirmed the information and
recommended debarment to DOI. The contractor was suspended within 10 days of the referral
and did not receive the pending ARRA award.

Through its training activities, OIG learned of a former official of a nonprofit organization that
had received a $1 million grant from the U.S. Fish and Wildlife Service to protect and restore

2
wetlands and associated uplands in Wisconsin. A criminal complaint was filed against the former
official for theft–false representation in connection with the misuse of nonprofit funds. The
individual was suspended and later debarred based on his misconduct.

Compliance and Ethics Agreements
We collaborated with DOI to create an effective process for implementing compliance and ethics
agreements—an agreement in lieu of suspension or debarment between a company or individual
and an agency—to protect the Government’s interests. These agreements include acceptance of
responsibility for the conduct that gave rise to the agreement, a requirement for a code of ethics,
a training program for all employees, an audit and internal control program, a compliance
program, and a mechanism for reporting misconduct. Violating the agreement provides an
independent cause for debarment. The agreement mandates appointment of a third-party monitor,
who ensures compliance with the terms and spirit of the agreement and internal control
procedures.

We review the work of the third-party monitor as well as the company’s adherence to the terms
of the agreement. We may also provide fraud awareness briefings to company employees at no
cost to the companies. Through the compliance and ethics agreement process, a contractor with
enhanced ethical procedures and internal controls remains eligible and can return to the award
pool, preserving American jobs.

Training
We initiated a program to significantly enhance the training of our suspension and debarment
staff on the latest compliance and ethics best practices. In addition, DOI and OIG will expand
outreach and training efforts regarding suspensions and debarments to other businesses later this
year in October. DOI and OIG have provided suspension and debarment training to over 650
special agents, investigators, and contracting and grants officials across DOI bureaus during the
past 3 years. This outreach teaches DOI personnel about the suspension and debarment remedy
and instructs them how to refer matters to OIG for review, resulting in actions that address
misconduct by contractors and financial assistance recipients.

OIG training has also included outreach to other Federal agencies developing or expanding their
suspension and debarment programs, including the Special Inspector General for Afghanistan
Reconstruction, CIGIE’s Inspector General Criminal Investigator Academy, the Federal
Communications Commission, the National Aeronautics and Space Administration, the U.S.
Department of Labor, and the U.S. Department of Health and Human Services.

DOI’s and OIG’s efforts in suspension and debarment awareness enable OIG to continue its
vigorous support of DOI and the Federal Government in excluding nonresponsible parties from
receiving Federal awards.


                                                                   Back to Toc                   3
Summaries of
Significant Reports
BLM Complied with “Wild Lands” Act
OIG inspected activities at the Bureau of Land Management (BLM) Wyoming State Office to
determine compliance with a secretarial order enacted in December 2010 to safeguard wilderness
characteristics of BLM-managed lands as well as an appropriations law related to work done
under the order.

Secretarial Order 3310, “Protecting Wilderness Characteristics on Lands Managed by the Bureau
of Land Management,” directed BLM to designate appropriate areas with wilderness
characteristics. Public Law 112-10, “Department of Defense and Full-Year Continuing
Appropriations Act” (April 2011) stated that BLM could not use funds provided by this or any
other act to perform work related to the secretarial order.

In April 2011, a Wyoming publication reported that BLM waited to issue six oil and gas leases
while it studied a certain area’s wilderness characteristics. The study was reported to be directly
related to the secretarial order, which would violate the 2011 appropriations law.

We determined that BLM did not violate the law. We learned that the news article contained
inaccurate information regarding the cause of the delay in issuing the leases. The study required
under the secretarial order was postponed due to poor weather conditions from February 2011
until the weather improved enough for BLM staff to safely enter the area and perform their work.
During the postponement the secretarial order was defunded, so BLM changed from determining
whether the lands should be designated as “wild lands” to performing a traditional inventory of
Lands with Wilderness Characteristics required by the Federal Land Policy and Management Act
of 1976.




Meadow of wildflowers in southern Wyoming

                                                                                                      5
FWS to Improve Monitoring and Enforcement of
Conservation Easements
OIG evaluated whether monitoring and enforcement by the U.S. Fish and Wildlife Service
(FWS) is able to protect the almost 33,000 conservation easements that FWS manages.

Conservation easements are cost-effective tools through which private landowners and the
Federal Government enter into mutually beneficial agreements. These legal agreements keep
working agricultural lands in production while delivering conservation benefits to the affected
habitat and wildlife. The private landowner retains ownership of the land that is under the
easement with certain binding restrictions on specified activities on that portion of the property.

The use of such easements is growing; FWS acquired 300 new easements each year from 2006 to
2010. The benefits to affected habitat and wildlife can be quickly lost, however, if FWS is not
diligent in ensuring that landowners adhere to the restrictions on the use of the property.

We found that FWS is making an effort to monitor its large inventory of conservation easements,
but is not doing so effectively. Specifically, monitoring and enforcement are highly variable from
location to location. This leads to vigorous FWS oversight in some field offices, but reliance on
third parties to identify and report violations in other field offices. In addition, we found that each
FWS region documents monitoring efforts differently—some quite specifically and others not at
all. Maintaining accurate documentation provides a permanent record of events and observations
concerning each easement, including evidence of proper monitoring.

We also identified several factors creating financial incentives for land owners to violate
conservation easements. Common easement violations include draining, filling, and burning of
wetland easements; early haying or burning of grassland easements; and mowing or burning of
habitat easements. Easement violations increase the monitoring and enforcement burden on
FWS. These financial incentives include changes in farming technology as well as the U.S.
Department of Agriculture’s (USDA) rules. The incentives to landowners provided by USDA far
outweigh the consequences of a fine from FWS for violating easement provisions. FWS has an
opportunity to create Bureau-wide guidance for administering, monitoring, and enforcing
easements.

We issued six recommendations to assist FWS in protecting its conservation easements:
conducting a workload and workforce analysis to determine needed resources, evaluating fines
and penalties to deter violations, providing easement location information to USDA,
implementing uniform guidance, documenting monitoring activities, and developing an
automated inspection process to record the history of monitoring at an easement.




6
Internal Controls over OST’s Investment Office Sufficient,
but Possible Future Problems Uncovered
OIG assessed the validity of six purported internal control weaknesses in the Office of Trust
Funds Investments (OTFI), a component of the Office of the Special Trustee for American
Indians (OST). These assertions were made by the then-principal deputy special trustee (PDST)
in his draft annual assurance statement on internal controls.

Internal controls are operations, policies, and procedures that managers use to achieve program
goals and safeguard program integrity. Weaknesses or deficiencies in internal controls
compromise program effectiveness and can lead to fraud, waste, and mismanagement. OST,
which was established to improve the accountability and management of Indian funds held in
trust by the Federal Government, must issue an annual statement to DOI providing assurance that
the office has sufficient internal controls in place to protect the tribal funds it invests.

The PDST’s concern that internal controls over OTFI were insufficient was based on two
investment errors that occurred during fiscal year (FY) 2011. Although both mistakes were
caught, the PDST issued a “qualified” draft statement—a statement that offers reasonable
assurance that internal controls are effective in areas other than specific exceptions or material
weaknesses.

The effectiveness of the office’s internal controls has a direct impact on the scope of work for
DOI’s annual financial statement audits, so DOI asked us to determine whether the PDST’s
assertions related to six OTFI controls were valid. The PDST asserted that OST had insufficient
internal controls to ensure that only authorized personnel initiated and approved investment
transactions. In addition, he asserted that OST did not have sufficient internal controls because
the office lacks an automated order management system. The fact that the same investment
contractor provided two distinct services was also a concern for the PDST. Finally, the PDST
asserted that three transactions from FY 2010 did not identify the rating of the securities that
were traded, which did not comply with OST policies in place at that time.

When we examined the related internal controls, however, we could not validate the PDST’s
assertions. None of the internal controls we reviewed were deficient when compensating controls
were taken into consideration.

Moreover, during our review we discovered several potential communication, decisionmaking,
and policy issues within OST. Because these issues were outside the scope of our audit, we did
not fully review them in accordance with generally accepted Government auditing standards.
Nevertheless, these matters point to possible future internal control problems if they are not fully
reviewed and addressed.




                                                                                                     7
                                               Improvements Needed to Safeguard
                                               NPS Visitor Donation Boxes
                                               OIG inspected the National Park Service’s (NPS)
                                               visitor donation box program to determine the
                                               adequacy of internal controls and whether parks
                                               spent donation funds appropriately. We found that
                                               NPS controls were adequate and complied with
                                               security procedures outlined in NPS policy. The
                                               inspection did reveal, however, that thefts occurred
                                               at almost 30 percent of the 14 parks we inspected.

                                               The national park system includes 397 parks and
                                               other historical and cultural sites visited by
                                               approximately 275 million people annually.
                                               National park sites receive Federal funding but also
                                               rely on direct donations, such as funds from visitor
                                               donation boxes, to enhance their programs. NPS
                                               policy allows installation of donation boxes on park
                                               property either by the park itself or by an authorized
                                               park fundraising partner, as long as 100 percent of
                                               the donations go to the park. At the 14 parks we
                                               inspected, donation box collections produced
                                               between 4 percent and 100 percent of total donation
                                               dollars the park received; in fiscal year 2011,
                                               donation box collections ranged from $1,263 to
                                               $54,213.

                                               We found that the parks appropriately spent
                                               donation box funds on park enhancements such as
                                               trail maintenance, interpretive displays, promotional
                                               brochures, and visitor center improvements. We did
                                               find, however, that 8 of the 14 parks did not have
                                               adequate written internal control procedures for
                                               donation box collections or for depositing funds. In
                                               addition, we learned that NPS policy requires parks
                                               administering visitor donation boxes to maintain an
                                               official list of designated collection officers and all
                                               employees handling cash to undergo special
                                               background checks. At least three of the parks we
                                               visited did not maintain appropriate documentation
                                               or administer the required background checks.
    Dream Lake, Rocky Mountain National Park

8
We also found that parks do not regularly remove cash from visitor donation boxes or deposit
funds on a weekly basis as required, which creates a greater opportunity for theft. Four of the 14
parks we visited experienced theft in the last 5 years. None of these parks removed or deposited
funds on a weekly basis.

NPS only conducts internal control reviews at large parks on a 2- to 4-year rotating schedule but
does not conduct these reviews at every park and rarely visits smaller parks. Moreover, these
reviews do not always address cash collected from donation boxes. Since 2003, NPS has
conducted reviews at only 5 of the 14 parks we inspected, and the donation box process was not
assessed at any of the 5 parks.

To ensure the integrity of donation box funds, we recommended that NPS enforce existing
policies requiring written internal controls at each park, require that parks designate collection
officers for donation boxes and maintain documentation, require that collection officers remove
cash and make deposits on a weekly basis, require that employees handling cash undergo
minimum background investigations, and consider revising internal control review procedures to
include donation box collections.

ONRR Faces Challenges on Timeliness, Efficiency
OIG evaluated the Office of Natural Resources Revenue’s (ONRR) process for obtaining timely
compliance from lessees and operators that violate lease terms, regulations, or Federal law during
the leasing and production of energy and mineral resources on Federal and Indian lands.

ONRR is responsible for managing billions of dollars in royalties and other revenues due the
Government from offshore and onshore mineral leasing activities. ONRR’s Office of
Enforcement (OE) ensures that companies comply with ONRR regulations and orders and
assesses civil penalties when a person or company fails to correct violations cited in a Notice of
Noncompliance (NONC) by the established deadline. A penalty can be assessed of up to $500
per violation per day starting 20 days after an NONC is received, and a knowing or willful
violation can carry an immediate penalty up to $25,000 per violation per day.

We found that OE obtained compliance with laws and regulations and negotiated reasonable
settlements when companies disputed the royalty amounts. Our evaluation found, however, that
ONRR has opportunities to improve its timeliness and efficiency in gaining compliance.

We found that ONRR is not always timely in issuing an NONC or assessing civil penalties as
established in its regulations. In some cases, it took more than 1 year to obtain a company’s
compliance. ONRR also allowed extended periods for companies to achieve compliance instead
of assessing civil penalties within authorized timeframes.




                                                                                                     9
ONRR also does not prepare risk assessment summaries required under its policies or fully
justify and document the assessed civil penalties in its case files. Improvements are also needed
to ensure the Government’s financial interests are protected during processing and management
of settlements and appeals. We determined the Government lost approximately $586,000 in
interest when processing five settlement agreements.

We issued seven recommendations to improve the efficiency of ONRR’s enforcement process
through focused management and coordination among ONRR divisions during the NONC
process, strengthened procedures to ensure that NONCs are issued promptly and civil penalties
are assessed and increased when compliance is not timely, and improved guidance to fully
document civil penalty assessments and negotiated settlements that would reduce the risk of lost
interest during the settlement and appeal process.

Absence of Policy Leads to Improper Use of
Allotted Funds in VI Legislature
In a joint audit of the administrative functions of the Virgin Islands Legislature (Legislature),
OIG and the Office of the Virgin Islands Inspector General (VI OIG) found that the Legislature is
not using sound business practices in its stewardship of public funds and resources, resulting in
fraud, waste, and mismanagement. The audit found a number of weaknesses that led to improper
use of allotted funds for such things as cash advances, employee bonuses, procurement of goods
and services, and security of sensitive equipment.

The Legislature is composed of 15 senators elected by popular vote for 2-year terms. The
senators elect officers, including a senate president, whose duties include supervising and
administering the internal affairs of all legislative offices, such as hiring and firing central staff
employees, approving contracts, and authorizing payments. The senate president is ultimately
responsible for authorizing the expenditure of the Legislature’s funds.

We identified many highly questionable practices and deficiencies during the audit, resulting
from an absence of formal policy and procedures as well as weak internal controls. The
unregulated administration of public funds has led to a culture with almost no accountability and
transparency.

OIG employees noted several examples of fraud, waste, and mismanagement. Auditors found—

        •   payment of cash advances to senators for travel with no verification that the travel
            actually occurred;
        •   awarding of bonuses to employees without written standards or justification of such
            awards;
        •   selection, approval, and payment of contracts without competition and internal
            controls, leading to overpayment and absence of documentation that the work had
            been performed;

10
       •   no reporting to the IRS, leading to underpayment of tax receipts to the Government of
           the Virgin Islands; and
       •   absence of documentation for sensitive equipment, potentially leading to the
           equipment being misused, lost, or stolen.

Good government inherently requires accountability and transparency to handle public funds. It
also requires that those funds are expended in the public’s best interest. To address these serious
deficiencies, DOI OIG and VI OIG auditors made 11 recommendations to the Legislature and the
senate president relating to codifying policies and procedures and maintaining documentation
regarding travel expenditures and receipts, employee bonuses, and procurement and acquisition
of property and other items.

Video Conferencing May Lead to Cost Savings and
Help Reduce Greenhouse Gas Emissions
OIG evaluated the use of video teleconferencing (VTC) by cataloging all of DOI’s VTC sites and
determining the potential benefits from increased use of the technology. We found that DOI has
an opportunity to save millions of dollars in annual travel expenses while also making progress
toward its environmental sustainability goals through greater use of VTC. DOI is currently
developing strategies to increase use.

VTC is a face-to-face communication between two or more groups of people at different
locations using video cameras, monitors, and a network, such as the Internet. This type of
conferencing can reduce travel when used for meetings, training sessions, or interviews. DOI has
315 VTC endpoints—points at which people use the VTC system—located throughout the
Nation, but it is not maximizing use of these endpoints. One reason VTC is not used to its full
potential is that DOI has no policies that require the use of VTC as a viable alternative to travel
or that require compatibility of equipment among VTC endpoints. In addition, employees have
cited negative experiences when using older VTC equipment, an absence of knowledge within
DOI on the availability of VTC, and low motivation for using the technology.

By increasing the use of VTC, DOI could experience significant savings in travel costs. Using
DOI’s fiscal year 2009 travel expenditures, we calculated that with only a 10 percent increase in
VTC use, DOI could potentially save $4.2 million on travel. An increase of 20 percent could save
as much as $8.5 million.

In addition to savings in travel costs, increased use of VTC could advance DOI’s goal of
reducing greenhouse gas emissions. Reducing departmental travel between 10 and 20 percent
will contribute to DOI’s goals under its Strategic Sustainability Performance Plan by eliminating
an estimated 298 to 596 tons of carbon dioxide emissions, equivalent to the emissions from
31,000 to 62,000 gallons of gasoline.



                                                                                                11
At a time when Federal agency budgets are increasingly tight, the use of VTC technology
represents an immediate and cost-saving action while at the same time supporting efforts to
reduce greenhouse gas emissions.

USBR Committed to Continuous Improvement of Dam Safety Controls
OIG evaluated the Bureau of Reclamation’s (USBR) emergency management of National
Critical Infrastructure (NCI) and Major Mission Critical (MMC) dams to determine whether they
have up-to-date emergency preparedness plans and capabilities.

USBR manages 477 dams and dikes throughout the western United States. Five of these dams
are classified as NCI and 16 are classified as MMC. NCI dams are facilities so vital that their
incapacity or destruction would have a devastating impact on the Nation’s economy, security, and
public health and safety. MMC dams, characterized by large facilities with multipurpose water
projects, are regarded as vital to a specific region of the United States. Their incapacity or
destruction would have a devastating impact on that region’s economy, security, and public
health and safety.

Under its dam safety program, USBR requires emergency action plans (EAPs) at the NCI and
MMC dams we evaluated. EAPs identify potential emergency conditions at a dam and specify
actions for dam operating personnel to follow in emergencies or unusual occurrences.

While USBR does have EAPs in place for the dams we visited, we identified opportunities for
USBR to strengthen its emergency management controls. Specifically, we found that
recommended corrective actions were not consistently documented after deficiencies were
identified during EAP exercises, annual EAP reviews, and communication drills. In addition, we
found that one NCI dam did not meet USBR’s directives on the frequency of EAP exercises; this
can cause those who are involved in emergency response to be unfamiliar with their roles and
responsibilities.

We also found that USBR has no requirement for documenting verification of equipment and
materials included in an EAP. We believe such documentation is an important component of
emergency preparedness because it ensures these resources are available and ready in an
emergency. Finally, we noted that the type of employee emergency training required by USBR is
inconsistent across Bureau offices, and directives are unclear as to who should receive such
training.

USBR is developing an oversight program to verify that EAP exercises are conducted and
documented for NCI and MMC dams and that corrective actions resulting from the exercises are
properly documented. USBR is also issuing guidance for documenting annual EAP reviews and
communication drills; confirming the location, existence, and operability of equipment and
materials listed as available in an EAP; and identifying and updating employee training
requirements.

12
Former FWS Employee
Convicted and Sentenced
After Misuse of Public
Funds
On March 16, 2012, a former U.S.
Fish and Wildlife Service (FWS)
employee was convicted and
sentenced to 3 years of probation
and restitution in the amount of
$28,239. The former employee
pleaded guilty in Federal District
Court in Maryland to theft of
Government funds through
unauthorized and personal use of a
Government purchase card. We
initiated this investigation on August
8, 2011, after an FWS manager
alerted us following an audit that the
employee was suspected of misusing
a Government credit card.

Two Tribal Committee
Members Convicted of
False Statements
On November 9, 2011, two former
committee members for the Indian
Education Committee of the
Seminole Native American
Education Corporation were indicted
for embezzlement of Indian
education funds. Both former
members submitted invoices falsely
certifying expenditures exceeding
$5,000 funded through a
Government contract that provided
services for the Seminole Public
Schools in Seminole, OK, from            Aerial view of the Hoover Dam
2006 to 2009.



                                                                         13
Both pleaded guilty to making false statements—one in December 2011 and the other in January
2012.

Former BIA Agency Superintendent Sentenced to
51 Months of Incarceration
We initiated an investigation in July 2009 into allegations of improper disbursements by Federal
and tribal employees of the Fort Peck Credit Program. We concluded that these employees
approved and received excessive loans and direct payments from the Credit Program without
authorization or proper documentation. The investigation revealed that all six employees of
the Credit Program routinely issued to themselves and to their family members disbursements
they were not entitled to receive from the Credit Program bank accounts. The employees also
confessed to intentionally altering Credit Program records in September 2007 to conceal their
fraud scheme from a Federal review team.

The Fort Peck Credit Program initially operated with $1.5 million in Federal funds provided
by the Bureau of Indian Affairs (BIA) through the U.S. Direct Loan Fund. The Direct Loan
Fund was created to promote access to capital and increase economic opportunity for American
Indians. The Direct Loan Fund was repaid in full in 1997, and as of that date, the Credit Program
operated strictly with tribal funds. The BIA Branch of Credit, however, maintained oversight
of the Credit Program until June 2008, with BIA employees exercising approval authority for
certain short-term loans and maintaining signature authority over the Credit Program bank
accounts.

In January 2010, a Federal grand jury in Billings, MT, issued the first of a series of criminal
indictments alleging a 10-year criminal conspiracy operating between 1999 and 2009 to
embezzle in excess of $1 million from the Credit Program by its six employees. All six
employees pleaded guilty to various felony charges, including conspiracy and obstruction of
justice, and were incarcerated with prison terms ranging from 24 to 45 months.

We expanded our investigation to identify other individuals who assisted in the fraud scheme. To
date, four more people have been convicted for their roles in stealing tribal funds from the Credit
Program, including the BIA Agency Superintendent, a 37-year career Federal employee and the
highest ranking BIA employee at the Fort Peck Agency.

We reported in our October 2011 Semiannual Report to Congress that an indictment was returned
against Florence White Eagle, BIA Agency Superintendent, Fort Peck Agency, in March 2011.
The indictment alleged that White Eagle conspired with Toni Greybull, former administrative
officer, BIA (deceased), in the illegal conversion of tribal funds from the Credit Program. White
Eagle was also charged with five additional felony charges: misprision of a felony, bribery,
financial conflict of interest, false statements, and the conversion of tribal funds. White Eagle
was convicted in June 2011 of all six charges.


14
White Eagle was sentenced on November 8, 2011, to 51 months of incarceration and 36 months
of supervised probation upon release from prison and was ordered to pay restitution of $3,810 to
the Fort Peck Credit Program and a $600 assessment to the Victim Crime Fund.
On February 16, 2012, the Billings Federal grand jury indicted Ashleigh M. Greybull, the
daughter of Toni Greybull. This indictment alleged three felony charges: one count of theft/
embezzlement from the Credit Program and two counts of false statements. Greybull entered a
plea of not guilty to all charges at her arraignment on March 20, 2012.

Ten people have been convicted for their roles in the fraud scheme. The U.S. District Court for
the District of Montana has ordered prison sentences totaling 278 months and restitution in the
amount of $832,303.

NPS Employee Pleads Guilty to Child Pornography Charges
The DOI Advanced Security Operations Center in Reston, VA, discovered material on a DOI
network address that appeared to be child pornography. We determined that the Government
equipment used for receipt of child pornography belonged to Michael Emanuelson, Property
Technician, National Park Service, Yellowstone National Park, Mammoth Hot Springs, WY. We
identified 29 images in the network traffic logs on Emanuelson’s computer that appeared to be
child pornography images.

Emanuelson admitted to using his Government-issued computer to access pornographic Web
sites via the Internet and view pornographic material. On July 19, 2011, a Federal grand jury
indicted Emanuelson, charging him with one count of accessing child pornography with intent to
view.

On March 7, 2012, Emanuelson pleaded guilty to the indictment in U.S. District Court in
Cheyenne, WY. Emanuelson’s sentencing is scheduled for May 16, 2012.

GEC and SG to Pay $550,000 to Resolve Antitrust and
False Claims Act Violations
Following a joint investigation with OIG and the U.S. Department of Justice, Gunnison Energy
Corporation (GEC) and SG Interests I and VII Ltd. (collectively, SG) agreed to pay $550,000 to
the United States to resolve allegations of antitrust and False Claims Act violations related to an
agreement not to compete in bidding for four natural gas leases sold at auction by the Bureau of
Land Management (BLM).




                                                                                                  15
BLM issues leases for oil and gas exploration and development on lands owned or controlled by
the Federal Government. BLM provides notice of parcels to be leased and then auctions a lease
for each parcel. The winning bidder is required to certify that its bid was not the product of
collusion with another bidder. GEC and SG entered into two improper agreements under which it
was agreed that SG would bid on leases at the BLM auctions, and if it won, SG would assign an
undivided 50 percent interest in the Federal leases to GEC.

In October 2009, a former GEC employee filed a qui tam action in the U.S. District Court for the
District of Colorado alleging that GEC defrauded the United States in connection with public
auctions of Federal gas leases conducted by BLM in Lakewood, CO. According to that
complaint, SG, acting through a proxy bidder, was the winning bidder on several Federal gas
leases at BLM’s public auctions between February 10, 2005, and November 9, 2006.




                                                                        Natural gas pipeline in Wyoming

16
After winning the Federal leases at auctions, SG assigned a 50 percent interest in those leases to
GEC. As part of BLM’s bidding process, SG was required to complete and sign a bid form
certifying that the winning bid was reached “independently and without collusion for the purpose
of restricting competition” and that it had not violated 18 U.S.C. § 1860, which prohibits
unlawful combination or intimidation of bidders. The former GEC employee alleged that these
certifications on the BLM bid forms were false statements since SG and GEC colluded to drive
down the price of the bids for leases.

Williams Pays ONRR $5 Million in Underpaid Royalties
The OIG Energy Investigations Unit investigated Williams Production RMT Company
(Williams) for underreporting gas production and sales volumes. Williams paid the Government
a 25 percent working interest on a lease it held in Colorado, but should have paid 58 percent. We
referred our findings to the Office of Natural Resources Revenue (ONRR) for administrative
action. ONRR reported in January 2012 that it collected over $5 million in underpaid royalties
and interest from Williams.

Gary-Williams Energy to Pay $2.76 Million in False Claims Settlement
In a settlement with the U.S. Attorney’s Office for the District of Colorado, Gary-Williams
Energy Company (Gary-Williams) paid $2.76 million to resolve allegations that Gary-Williams
violated the Federal False Claims Act by failing to pay DOI.

According to the settlement, the Government contended that Gary-Williams failed to pay all the
money owed to DOI for oil obtained from the Gulf of Mexico from October 2008 to September
2009. During that time, Gary-Williams inappropriately discounted the payments it made to DOI
for oil acquired under an agreement with DOI. Gary-Williams claimed it was entitled to certain
price reductions and credits based on the costs of shipping the oil it acquired to various market
centers.

These reductions and credits were related to the quality of the oil, theoretical losses of oil in
transportation, and hurricane surcharges. Instead of transporting the oil it acquired, however,
Gary-Williams transferred title to the oil at the wellhead to a third party and was thus ineligible
to receive price reductions and credits.




                                                                                                  17
Man Charged with False Statement Regarding
Blowout Preventer Testing on Drilling Rig
On February 28, 2012, the U.S. District Court for the Eastern District of Louisiana charged
Donald Hudson, former rig manager, Helmerich and Payne International Drilling Company
(H&P) with one felony count in violation of making false statements.

Hudson lied to a Federal agent employed by OIG when he denied instructing his employees to
falsify blowout preventer (BOP) tests conducted aboard a drilling rig operating in the outer
continental shelf (OCS) and within waters regulated by the Bureau of Ocean Energy
Management and the Bureau of Safety and Environmental Enforcement. Hudson later admitted
that he instructed his employees to falsify BOP tests to save the rig downtime, and thus operating
costs associated with repairing leaking valves on the choke manifold. The choke manifold is a
part of the BOP system, which is used during drilling operations to maintain well control and
ultimately protect the drilling rig, personnel aboard the rig, and the environment from
unanticipated pressure spikes within the well bore.

Hudson was scheduled for a court hearing in April 2012. The investigation continues in
consultation with the U.S. Attorney’s Office, Eastern District of Louisiana.

Council President Pleads Guilty to Misapplication of Funds
Members of the Dot Lake Village Council, a Federally recognized tribal organization in Alaska,
filed a complaint alleging that former Council President Ted Charles misappropriated
approximately $77,000 in Bureau of Indian Affairs (BIA) Federal funds through a combination
of undocumented ATM withdrawals, debit card purchases, unauthorized travel expenditures, and
improper contracting over a 1-year period in 2007.

We found that Charles intentionally misapplied $24,887 in Federal funds from the Dot Lake
Village Council, both during his tenure as Council President and after he left the council for a
position as the Chief Administrative Officer with Tanana Chiefs Conference, an organization that
receives and administers BIA Federal funds annually. Charles also borrowed over $13,000 in
payroll advances from the tribe and vacated his position on the council with an outstanding
balance of $3,990.

On February 1, 2012, Charles pleaded guilty in Anchorage, AK, to one count of misapplication
of funds from an organization receiving Federal funds and agreed to serve 3 years of probation
and to pay restitution in the amount of $28,877.44. He also resigned from his position with the
Tanana Chiefs Conference. Charles was to be sentenced in Fairbanks, AK, on April 20, 2012.




18
FWS Employee Charged with Misuse of
Government-Issued Credit Card
A purchasing agent for the U.S. Fish and Wildlife Service (FWS), Sonny Bono Salton Sea
National Wildlife Refuge, in Calipatria, CA, purchased $30,122.88 in fraudulent purchases on
her Government credit card between December 2008 and May 2011. She voluntarily provided a
written statement admitting to misuse of her card. FWS subsequently terminated her employment
effective September 12, 2011. On March 7, 2012, the purchasing agent was charged in the
Southern District of California with theft of Government property.

A supervisor had enabled the fraud by failing to review and verify charges on the purchasing
agent’s monthly credit card statements. The U.S. Attorney’s Office for the Southern District of
California declined criminal prosecution, but the supervisor received a 14-day suspension from
FWS.

BIA Employee Terminated for Receipt of Child Pornography
OIG and U.S. Immigration and Customs Enforcement investigated BIA employee Jasper Blair
for receipt of child pornography after we received notification of email correspondence
containing an image of child pornography involving Blair.

BIA terminated Blair’s employment, and Blair was indicted on one count of receipt of child
pornography. On September 26, 2011, Blair appeared before the Magistrate Court in the District
of Oregon, where he entered a plea of not guilty to receipt of child pornography. Blair was placed
on supervised release, which includes electronic monitoring and no contact with minor children,
until his trial. His trial date has been set for May 15, 2012.

Contractors Admit to False Statements to
Bypass HUBZone Requirements
The Government Accountability Office (GAO) and the Recovery Accountability and
Transparency Board (RATB) referred to OIG an investigation regarding fraudulently obtained
Federal set-aside contracts through the Small Business Administration (SBA) HUBZone
Program.

Two roofing companies, Construction Service Corporation (CSC) and McDonald Roofing and
Construction (MRC), were used as “pass-through” or “shell” companies to obtain Federal
contracts that a third company, Quality Tile Roofing (QTR), then performed or subcontracted.
Between 2005 and 2010, MRC, CSC, and various other related partnerships and joint ventures
were awarded more than 21 Government contracts with award amounts totaling over $21
million. Twelve of those contracts were awarded through DOI agencies; CSC received three DOI
HUBZone set-aside contracts and MRC received one DOI HUBZone set-aside contract.

                                                                                               19
We determined that, as part of a self-certification process, CSC and MRC made false statements
regarding their business operations, ownership, and control to qualify for the SBA HUBZone
Program and obtain set-aside Government contracts for which QTR would otherwise not be
eligible. Our investigation also revealed that QTR, or other companies subcontracted by QTR,
performed the majority of the work.

The U.S. Attorney’s Office in Boise, ID, accepted the case for criminal prosecution. On March
15, 2012, MRC was arraigned on and pleaded guilty to one count of wire fraud. On March 28,
2012, CSC was arraigned on and pleaded guilty to one count of wire fraud and one count of false
statements. Both corporations are scheduled to be sentenced on June 6, 2012.

Former FWS Employee’s Fraud Conviction Upheld
On February 27, 2012, the Ninth Circuit Court of Appeals affirmed the April 2010 conviction of
Kevyn Paik, former Heavy Equipment Operator, U.S. Fish and Wildlife Service (FWS), Kauai,
HI. Paik appealed his conviction for criminal conflict of interest based, in part, on his assertion
that because he was a low-level employee who was not formally charged with the administration
of the contract, he could not be held criminally liable for conflict of interest. The court ruled that
Paik’s informal role in the day-to-day administration of the contract was sufficient to meet the
requirements of the statute.

In April 2010, Paik and former FWS employee Alan Duarte were found guilty in U.S. District
Court of Hawaii of two counts each of mail fraud and two counts each of wire fraud. Paik was
also found guilty of one count of acts affecting a personal financial interest. Paik conspired with
Duarte to illegally obtain subcontracts for pond enhancement or restoration work at Hanalei
National Wildlife Refuge. Paik and Duarte concealed their involvement through the use of
two straw-man companies, or third parties acting as a front. Paik used his position as an FWS
employee to ensure Duarte was awarded the contracts, and they divided the proceeds from the
scheme.

On October 4, 2010, Duarte was sentenced to 12 months of probation. On December 31, 2010,
Paik was sentenced to 30 days of imprisonment. On August 31, 2010, both Paik and Duarte were
debarred from participation from Federal procurement and non-procurement programs until
November 29, 2012.

Former CFO Convicted in Fraud Scheme
On January 26, 2012, Paul Solofa, former Chief Financial Officer, Department of Education
(DOE), American Samoa Government, was convicted of one count of witness tampering and
one count of obstruction of justice for telling a witness to burn documents and lie to Federal
investigators when questioned regarding a scheme to defraud the American Samoa Government.
Solofa participated in the scheme and tried to keep his involvement from being disclosed to
investigators.

20
Solofa conspired with Gustav Nauer, Division Head of the School Bus Garage, and others,
in a scheme to defraud DOE by creating phantom purchase orders for school bus parts and
services that were never delivered. Nauer, Solofa, and their co-conspirators then pocketed the
money from the phony transactions. On January 4, 2011, Nauer pleaded guilty to one count of
conspiracy for his role in the scheme. Both Nauer and Solofa await sentencing in U.S. District
Court.

Canal Wood Pays to Settle Allegations of Fraud
OIG assisted the U.S. Attorney’s Office for the District of South Carolina in recovering lost
funds related to sales of timber on Federal land. Canal Wood, LLC, agreed to pay the United
States a total, including penalties, of $520,064.50 to resolve allegations that it defrauded the
Government. Canal Wood failed to include more than $208,000 worth of timber scale tickets—
receipts showing the weight of the timber harvested and brought to sawmills for processing—
from the total number of tickets it presented to the U.S. Fish and Wildlife Service for timber cut
on Federal land.




Timber cut for industrial use




                                                                    Back to Toc                  21
Appendices

             I j \\
                                                                                                                                       Appendix 1
Investigations Statistical Highlights
October 1, 2011 - March 31, 2012

Investigative Activities
Cases Closed.................................................................................................................................258
Cases Opened................................................................................................................................241
Hotline Complaints/Inquiries Received........................................................................................126

Criminal Prosecution Activities
Indictments/Informations................................................................................................................10
Convictions......................................................................................................................................7
Sentencings......................................................................................................................................9
   -Jail.................................................................................................................................122 mos.
   -Probation.......................................................................................................................312 mos.
   -Criminal Penalties.........................................................................................................$223,236
Criminal Matters Referred for Prosecution.....................................................................................10
Criminal Matters Declined this Period.............................................................................................1

Civil Investigative Activities
Civil Settlements...............................................................................................................$3,834,813

Administrative Investigative Activities
Removals..........................................................................................................................................3
Suspensions......................................................................................................................6 (97 days)
Retired..............................................................................................................................................1
Reprimands/Counseling..................................................................................................................11
General Policy Actions....................................................................................................................15
Bill for Collection.................................................................................................................1 ($723)
Contractor Suspensions.....................................................................................................................8
Royalties Settlement Agreement.......................................................................................$5,302,109
Contractor Debarments...................................................................................................................22
Bureau Non-Responsive*.................................................................................................................2
   (1 BIE, 1 BLM)


*Bureau Non-Responsive is a category indicating failure by a bureau to respond to referral for administrative action.




                                                                                                                                                  23
Appendix 1
Statistical Highlights
Audit and Evaluation Activities
Reports Issued.................................................................................................................................28
   Performance Audits, Financial Audits, Evaluations, Inspections, and Verifications................19
   Contract and Grant Audits...........................................................................................................9

Audit and Evaluation Impacts
Total Monetary Impacts....................................................................................................$2,662,468
   Questioned Costs (includes unsupported costs).........................................................$2,601,089
   Recommendations That Funds Be Put to Better Use......................................................$61,379

     Audit and Evaluation Recommendations Made.....................................................................145
     Audit and Evaluation Recommendations Closed.....................................................................66

Recovery Oversight Office Impacts
Total Products Issued........................................................................................................................7

     Advisory Reports........................................................................................................................6
     Other (Non-Published) Products.................................................................................................1

Recommendations Made................................................................................................................11
Recommendations Closed................................................................................................................3




24                                                                                            Back to Toc
                                                                                      Appendix 2
Reports Issued During the 6-Month Reporting Period
This listing includes all audit, inspection, and evaluation reports issued during the 6-month
period that ends March 31, 2012. It provides report number, title, issue date, and monetary
amounts identified in each report (* Funds Be Put to Better Use, ** Questioned Costs, and ***
Unsupported Costs).

Audits, Evaluations, and Verifications

       Bureau of Land Management

              ZZ-IS-BLM-0001-2011
              Inspection – Bureau of Land Management Activities Related to Secretarial Order
              3310 - Wild Lands (02/02/2012)

       Bureau of Reclamation

              ER-IS-BOR-0012-2011
              Inspection – U.S. Department of the Interior Program Startup Inspection: Bureau
              of Reclamation WaterSMART Grant Program (11/10/2011)

              WR-EV-BOR-0007-2011
              Final Evaluation Report – Bureau of Reclamation’s Safety of Dams: Emergency
              Preparedness (02/27/2012)

       Indian Affairs

              ER-IS-BIA-0010-2011
              Inspection – U.S. Department of the Interior Program Startup Inspection: Bureau
              of Indian Affairs Youth Initiative Program (11/10/2011)

              WR-EV-BIA-0014-2011
              Advisory – Indian Land Consolidation: Tribal Participation in Program
              Implementation (11/28/2011)

              ZZ-IN-BIA-0002-2012
              Office of Inspector General’s Independent Report on the Bureau of Indian Affairs’
              Fiscal Year 2011 Accounting and Performance Summary Review Reports for the
              Office of National Drug Control Policy (02/01/2012)
                                                                                             25
Appendix 2
       Insular Area Reports

             VI-IN-VIS-0001-2010
             Audit Report – Administrative Functions - Legislature of the Virgin Islands
             (11/28/2011)

       Multi-Office Assignments

             ER-SP-MOI-0008-2011
             Inspector General’s Statement Summarizing the Major Management and
             Performance Challenges Facing the U.S. Department of the Interior (10/14/2011)

             X-IN-MOA-0001-2012
             Independent Auditors’ Report on the U.S. Department of the Interior Special-
             Purpose Financial Statements for Fiscal Years 2011 and 2010 (11/15/2011)

             X-IN-MOA-0006-2011
             Independent Auditors’ Report on the U.S. Department of the Interior Financial
             Statements for Fiscal Years 2011 and 2010 (11/15/2011)

             WR-EV-MOA-0004-2010
             Final Evaluation Report – U.S. Department of the Interior’s Video
             Teleconferencing Usage (12/20/2011)

       National Park Service

             ER-IS-NPS-0014-2011
             Inspection – National Park Service Visitor Donation Boxes
             (03/08/2012)

       Office of Natural Resources Revenue

             CR-EV-MMS-0002-2010
             Evaluation Report – Office of Enforcement, Office of Natural Resources Revenue
             (01/09/2012)




26
                                                                                   Appendix 2
     Office of the Special Trustee

           X-IN-OST-0005-2011
           Independent Auditors’ Report on the Tribal and Other Trust Funds and Individual
           Indian Monies Trust Funds Financial Statements for FY2011 and FY2010
           (11/10/2011)

           ZZ-IN-OST-0001-2012
           Audit of Selected Internal Controls in the Office of Special Trustee for American
           Indians (12/08/2011)

     Office of Surface Mining

           ER-IS-OSM-0011-2011
           Inspection – U.S. Department of the Interior Program Startup Inspection: Office
           of Surface Mining Appalachian Regional Reforestation Initiative (11/10/2011)

     U.S. Fish and Wildlife Service

           WR-EV-FWS-0003-2011
           Evaluation Report – U.S. Fish and Wildlife Service Conservation Easement
           Monitoring and Enforcement (01/09/2012)

           K-MA-FWS-0002-2012
           Management Advisory – Clarification Needed on Easements under the U.S. Fish
           and Wildlife Service Manual, Part 517 Chapter 7 (517 FW 7) (03/07/2012)

           K-MA-FWS-0003-2012
           Management Advisory – Clarification Needed on Land Reconciliations under the
           U.S. Fish and Wildlife Service Manual, Part 522 Chapter 20 (522 FW 20)
           (03/08/2012)

Contract and Grant Audits

     Bureau of Land Management

           C-CX-BLM-0008-2011
           Audit of Costs Claimed by Hydro Resources Colorado, Inc., for Modification
           No. 2 under Contract No. L10PC00456 with the Bureau of Land Management
           (01/12/2012) **$275,538 ***$976,500
                                                                                             27
Appendix 2
       U.S. Fish and Wildlife Service

             R-GR-FWS-0006-2011
             U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
             Grants Awarded to the Government of the Virgin Islands, Department of Planning
             and Natural Resources, From October 1, 2008, Through September 30, 2010
             (11/03/2011) **$40,209 ***$25,409

             R-GR-FWS-0007-2011
             U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
             Grants Awarded to the State of Maryland, Department of Natural Resources, From
             July 1, 2008, Through June 30, 2010 (11/30/2011) *$61,379 ***$941,106

             R-GR-FWS-0011-2011
             U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
             Grants Awarded to the State of North Dakota, Game and Fish Department From
             July 1, 2008, Through June 30, 2010 (12/01/2011)

             R-GR-FWS-0009-2011
             U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration
             Program Grants Awarded to the State of Hawaii, Department of Land and
             Natural Resources, From July 1, 2008, Through June 30, 2010
             (12/13/2011)

             R-GR-FWS-0010-2011
             U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
             Grants Awarded to the Maine Department of Marine Resources, from July 1,
             2008, Through June 30, 2010 (12/22/2011) **$21,147

             R-GR-FWS-0008-2011
             U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
             Grants Awarded to the State of Michigan, Department of Natural Resources, From
             October 1, 2008, Through September 30, 2010 (01/06/2012)

             R-GR-FWS-0012-2011
             U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
             Grants Awarded to the State of Maine, Department of Inland Fisheries and
             Wildlife, From July 1, 2008, Through June 30, 2010 (03/01/2012) **$321,180



28
                                                                                  Appendix 2
           R-GR-FWS-0002-2012
           U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Louisiana, Department of Wildlife and Fisheries,
           From July 1, 2009, Through June 30, 2011 (03/07/2012)

Recovery Oversight Office Reports

     Indian Affairs

           RO-V-BIA-2008-2010
           Verification Review of Five Recommendations Considered Implemented from
           Our Recovery Oversight Advisory-Indian School Replacement, Improvement and
           Repair Programs (01/10/2012)

     National Park Service

           RO-F-NPS-049-2011
           Progress of HBCU Historic Preservation Grant Program (11/01/2011)

     U.S. Fish and Wildlife Service

           RO-C-FWS-068-2011
           Manhan Fish Passage (11/01/2011)

           RO-B-MOA-062-2011
           Review of the Nature Conservancy’s Claimed Costs (12/13/2011)

           RO-V-FWS-078-2011
           Verification Review of Recovery Oversight Advisory – Problems with
           Recovery Act Purchase Order 10191RM578 for Program Management Services
           (RO-ROA-FWS-5001-2010) (01/10/2012)

           RO-C-FWS-072-2011
           Recovery Oversight Advisory – Acquisition Procedures on the Barrier Beach
           Restoration (01/12/2012)




                                                             Back to Toc                 29
Appendix 3
Monetary Resolution Activities
Table 1: Inspector General Reports with Questioned Costs*

                                 Number of Reports   Questioned Costs*    Unsupported Costs
 A. For which no                        6                   $14,363,623          $13,013,490
 management decision
 has been made by the
 commencement of
 the reporting period.
 B. Which were issued                        5               $2,601,089           $1,943,015
 during the reporting
 period.
 Total (A+B)                                 11             $16,964,712          $14,956,505
 C. For which a                              1                $130,182             $110,174
 management decision
 was made during the
 reporting period.

 (i) Dollar value of                                            $74,731              $54,723
 recommendations
 that were agreed to
 by management.

 (ii) Dollar value of                                           $55,451              $55,451
 recommendations
 that were not agreed
 to by management.
 D. For which no                             10             $16,834,530          $14,846,331
 management decision
 had been made by the
 end of the reporting
 period.


*Note: Does not include non-Federal funds.




30
                                                                                       Appendix 3
Monetary Resolution Activities
Table II: Inspector General Reports with Recommendations
         That Funds Be Put to Better Use*

                                             Number of Reports          Dollar Value
 A. For which no management                         1                                   $ 8,504
 decision has been made by
 the commencement of the
 reporting period.
 B. Which were issued during                        1                                  $61,379
 the reporting period.
 Total (A+B)                                        2                                  $69,883
 C. For which a management                          0                                       $0
 decision was made during the
 reporting period.

 (i) Dollar value of                                                                         $0
 recommendations that were
 agreed to by management.

 (ii) Dollar value of                                                                        $0
 recommendations that were
 not agreed to by management.
 D. For which no                                    2                                  $69,883
 management decision had
 been made by the end of the
 reporting period.


*Note: Does not include non-Federal funds.




                                                                 Back to Toc                  31
Appendix 4
Summary of Reports Over 6 Months Old
Pending Management Decision
This listing includes a summary of audit, inspection, and evaluation reports that were more than
6 months old on March 31, 2012, and still pending a management decision. It provides report
number, title, issue date, and number of unresolved recommendations.

Audits, Evaluations, and Verifications

       Bureau of Ocean Energy Management

               CR-EV-MMS-0015-2010
               A New Horizon: Looking to the Future of the Bureau of Ocean Energy
               Management, Regulation and Enforcement (12/07/2010); 1 Recommendation

       Indian Affairs

               NM-EV-BIE-0001-2008
               Evaluation of Controls to Prevent Violence at Bureau of Indian
               Education Operated Education Facilities (08/01/2008); 1 Recommendation

               WR-EV-BIA-0001-2011
               Advisory – Indian Land Consolidation: Mass Appraisals of Indian Lands
               (06/13/2011); 3 Recommendations

       Insular Area Reports

               P-EV-FSM-0001-2007
               Kosrae State, Federated States of Micronesia: Property Accountability Process
               Needs To Be Improved (10/17/2007); 3 Recommendations

               VI-EV-VIS-0002-2009
               Evaluation Report – Energy Production in the Virgin Islands (12/28/2009);
               4 Recommendations

               VI-IN-VIS-0003-2009
               Final Audit Report – Capital Improvement Projects Administrative Functions -
               Procurement Deficiencies Plague the Virgin Islands Port Authority (09/08/2010);
               1 Recommendation; $443,300 unresolved
32
                                                                              Appendix 4
       VI-IS-VIS-0004-2009
       Inspection Report – Security Improvements at the Governor’s Private Residence
       (01/19/2010); 4 Recommendations; $490,000 unresolved

Multi-Office Assignments

       C-IN-MOA-0004-2007
       Abandoned Mine Lands in the Department of the Interior (07/24/2008);
       1 Recommendation

Office of Insular Affairs

       VI-EV-OIA-0004-2011
       Evaluation Report – Administrative Functions of the Virgin Islands Government
       Employees Retirement System (09/27/2011); 1 Recommendation

Office of the Secretary

       WR-EV-OSS-0005-2008
       Flash Report – Department of the Interior: Risking People and Property by Flying
       Airplanes in Excess of Federal Aviation Administration and Manufacturer
       Specifications (02/09/2009); 1 Recommendation

Office of the Special Trustee

       WR-EV-OST-0010-2011
       Advisory – Indian Land Consolidation: Need for an Appraisal Tracking System
       (07/18/2011); 3 Recommendations

U.S. Fish and Wildlife Service

       C-IS-FWS-0017-2010
       Inspection – Status of Rocky Flats National Wildlife Refuge
       (07/21/2011); 1 Recommendation




                                                    Back to Toc                      33
Appendix 5
Summary of Reports Over 6 Months Old
Pending Corrective Action
This is a listing of audit, inspection, and evaluation reports more than 6 months old with
management decisions for which corrective action has not been completed. It provides report
number, title, issue date, and the number of recommendations without final corrective action.
These audits and evaluations continue to be monitored by the Branch Chief for Internal Control
and Audit Follow-up, Assistant Secretary for Policy, Management and Budget, for completion of
corrective action.

       Bureau of Land Management

              CR-EV-BLM-0002-2009
              Evaluation of Bureau of Land Management’s Oil and Gas Lease Auction Process
              (08/26/2009); 2 Recommendations

              WR-IN-BLM-0003-2010
              Follow-up to Office of Policy Analysis Report, “Review of Selective Aspects of
              the Federal Helium Program,” June 2010 (10/18/2010); 2 Recommendations

              CR-EV-BLM-0001-2009
              Evaluation Report of the Bureau of Land Management’s Oil and Gas Inspection
              and Enforcement Program (12/02/2010); 8 Recommendations

              C-IS-BLM-0018-2010
              Wild Horse and Burro Program (12/13/2010); 3 Recommendations

       Bureau of Ocean Energy Management

              CR-EV-MMS-0015-2010
              A New Horizon: Looking to the Future of the Bureau of Ocean Energy
              Management, Regulation and Enforcement (12/07/2010); 34 Recommendations

       Bureau of Reclamation

              C-IS-BOR-0006-2010
              Inspection Report – Museum Collections: Preservation and Protection Issues with
              Collections Maintained by the Bureau of Reclamation (01/29/2010);
              1 Recommendation

34
                                                                               Appendix 5
      WR-FL-BOR-0007-2010
      Follow-up – Bureau of Reclamation’s Management of Exclusive Use Recreation
      Areas (02/24/2011); 4 Recommendations

      RO-B-USBR-0109-2010
      U.S. Bureau of Reclamation Rural Water Projects (08/15/2011);
      7 Recommendations

Indian Affairs

      NM-EV-BIE-0003-2008
      Evaluation Report – School Violence Prevention (02/03/2010);
      3 Recommendations

      WR-EV-BIA-0002-2010
      Evaluation – Coordination of Efforts to Address Indian Land Fractionation
      (01/04/2011); 6 Recommendations

      WR-EV-BIA-0005-2010
      Final Evaluation – Bureau of Indian Affairs’ Detention Facilities (03/31/2011);
      1 Recommendation

      WR-EV-BIA-0001-2011
      Advisory – Indian Land Consolidation: Mass Appraisals of Indian Lands
      (06/13/2011); 3 Recommendations

      ER-IN-BIA-0016-2009
      Final Audit Report – Bureau of Indian Affairs: Wildland Fire Suppression
      (07/13/2011); 6 Recommendations

Insular Area Reports

      V-IN-VIS-0004-2005
      Controls Over Video Lottery Terminal Operations, Government of the Virgin
      Islands (06/08/2007); 2 Recommendations

      P-EV-FSM-0001-2007
      Kosrae State, Federated States of Micronesia: Property Accountability Process
      Needs To Be Improved (10/17/2007); 5 Recommendations


                                                                                        35
Appendix 5
             V-IN-VIS-0011-2006
             Collection of Outstanding Taxes and Fees, Government of the Virgin Islands
             (01/10/2008); 3 Recommendations

             V-IN-VIS-0001-2007
             Administrative Functions, Roy Lester Schneider Regional Medical Center,
             Government of the Virgin Islands (07/28/2008); 4 Recommendations

             P-EV-GUA-0002-2008
             Tax Collection Activities, Government of Guam, Revitalized Tax Collection and
             Enforcement Effort Needed (11/26/2008); 2 Recommendations

             V-IN-VIS-0003-2007
             U.S. Virgin Islands Workers’ Compensation Benefits at Risk (11/28/2008);
             3 Recommendations

             VI-IS-VIS-0002-2008
             Final Evaluation Report – Virgin Islands Police Department Evidence Integrity at
             Risk (03/31/2009); 10 Recommendations

             VI-IN-VIS-0003-2009
             Final Audit Report – Capital Improvement Projects Administrative Functions -
             Procurement Deficiencies Plague the Virgin Islands Port Authority (09/08/2010);
             1 Recommendation

             VI-EV-VIS-0002-2010
             Evaluation Report – Administrative Functions of the Virgin Islands Government
             Employees Retirement System (09/27/2011); 6 Recommendations

       Multi-Office Assignments

             2002-I-0045
             Recreational Fee Demonstration Program – National Park Service and Bureau of
             Land Management (08/19/2002); 1 Recommendation

             E-EV-MOA-0008-2004
             Department of the Interior Workers’ Compensation Program (05/09/2005);
             1 Recommendation



36
                                                                       Appendix 5
C-IN-MOA-0049-2004
Department of the Interior Concessions Management (06/13/2005);
1 Recommendation

C-IN-MOA-0007-2005
U.S. Department of the Interior Radio Communications Program (01/30/2007);
5 Recommendations

C-IN-MOA-0004-2007
Abandoned Mine Lands in the Department of the Interior (07/24/2008);
3 Recommendations

X-IN-MOA-0011-2008
Independent Auditors’ Report on the Department of the Interior Financial
Statements for Fiscal Years 2008 and 2007 (11/15/2008); 3 Recommendations

C-EV-MOA-0009-2008
Evaluation Report on Oil and Gas Production on Federal Leases: No Simple
Answer (02/27/2009); 2 Recommendations

WR-EV-MOI-0008-2008
Employee Relocation, U.S. Department of the Interior (09/21/2009);
3 Recommendations

C-IN-MOA-0010-2008
Audit Report – Department of the Interior Museum Collections: Accountability
and Preservation (12/16/2009); 11 Recommendations

C-EV-MOA-0003-2009
Evaluation Report – Department of the Interior Roads Programs: The Dangers of
Decentralization (02/01/2010); 1 Recommendation

CR-IS-MOA-0004-2009
Inspection Report – BLM and MMS Beneficial Use Deductions (03/08/2010);
4 Recommendations

C-IN-MOA-0004-2009
Evaluation Report – Geothermal Royalties (03/09/2010); 3 Recommendations



                                                                               37
Appendix 5
              C-IN-MOA-0001-2009
              Final Audit Report – Department of the Interior’s Management of Land
              Boundaries (07/16/2010); 4 Recommendations

              ER-EV-MOA-0012-2009
              Wildland Urban Interface: Community Assistance (07/30/2010);
              3 Recommendations

              X-IN-MOA-0004-2010
              Independent Auditors’ Report on the U.S. Department of the Interior Financial
              Statements for FY2010 and FY2009 (11/15/2010); 2 Recommendations

              C-EV-MOA-0010-2010
              Final Evaluation Report – Portable Nuclear Gauges (09/28/2011);
              1 Recommendation

       National Park Service

              C-IN-NPS-0013-2004
              The National Park Service’s Recording of Facility Maintenance Expenditures
              (01/26/2005); 2 Recommendations

              HI-EV-NPS-0001-2010
              Evaluation – National Park Service: Climate Friendly Parks Initiative
              (08/12/2011); 3 Recommendations

       Office of Insular Affairs

              VI-IN-OIA-0004-2010
              Final Audit Report – Capital Improvement Projects Administrative Functions:
              Procurement Deficiencies Plague the Virgin Islands Port Authority (09/08/2010);
              1 Recommendation

       Office of the Secretary

              WR-EV-OSS-0012-2009
              Evaluation Report on the Department of the Interior’s Appraisal Operations
              (12/23/2009); 1 Recommendation



38
                                                                                  Appendix 5
      ER-IN-OSS-0009-2009
      Audit of the International Technical Assistance Program (07/21/2010);
      3 Recommendations

      ER-IS-NBC-0003-2011
      Inspection – Acquisition Services Directorate - Sierra Vista Organization
      (07/14/2011); 2 Recommendations

U.S. Fish and Wildlife Service

      97-I-1305
      Audit Report on the Automated Law Enforcement System, U.S. Fish and Wildlife
      Service (09/30/1997); 1 Recommendation

      NM-EV-FWS-0001-2010
      Evaluation – The National Bison Range (03/30/2011); 1 Recommendation

      X-IN-FWS-0007-2010
      Independent Biennial Auditors’ Report on the Audit of Expenditures and
      Obligations used by the Secretary of the Interior in the Administration of
      the Wildlife and Sport Fish Restoration Programs Improvement Act of 2000 for
      Fiscal Years 2007 Through 2008 and Fiscal Years 2009 Through 2010
      (04/04/2011); 2 Recommendations




                                                       Back to Toc                       39
Cross-References to the Inspector General Act
                                                                                       Page
Section 4(a)(2)            Review of Legislation and Regulations                       N/A*

Section 5(a)(1)            Significant Problems, Abuses, and Deficiencies              5-21

Section 5(a)(2)            Recommendations for Corrective Action With Respect          32-39
                           to Significant Problems, Abuses, and Deficiencies

Section 5(a)(3)            Significant Recommendations From Agency’s Previous          34-39
                           Reports on Which Corrective Action Has Not Been Completed

Section 5(a)(4)            Matters Referred to Prosecutive Authorities and             23
                           Resulting Convictions

Section 5(a)(5)            Matters Reported to the Head of the Agency                  N/A

Section 5(a)(6)            Audit Reports Issued During the Reporting Period            25-29

Section 5(a)(7)            Summary of Significant Reports                              5-21

Section 5(a)(8)            Statistical Table: Questioned Costs                         30

Section 5(a)(9)            Statistical Table: Recommendations That Funds Be Put        31
                           to Better Use

Section 5(a)(10)           Summary of Audit Reports Issued Before the Commencement     32-33
                           of the Reporting Period for Which No Management Decision
                           Has Been Made

Section 5(a)(11)           Significant Revised Management Decisions Made               N/A
                           During the Reporting Period

Section 5(a)(12)           Significant Management Decisions With Which                 N/A
                           the Inspector General is in Disagreement

Section 5(a)(13)           Information Described Under Section 804(b) of the Federal   N/A
                           Financial Management Improvement Act of 1996

*N/A: Not applicable to this reporting period.
U.S. Department of the Interior
  Office of Inspector General
      1849 C Street NW.
      Mail Stop 4428, MIB
     Washington, DC 20240

       www.doioig.gov

     Phone: 202-208-4618
      Fax: 202-208-6062
